15
APPENDIX A: Pet.App.l
[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-12615
Non-Argument Calendar
Agency No. 12357-16

ANTHONY ITALO PROVITOLA
KATHLEEN A. PROVITOLA,
Petitioners-AppeUants,
versus
COMMISSIONER OF INTERNAL REVENUE,
Respondent-Appellee.
Petition for Review of a Decision of the
U.S. Tax Court
(June 11, 2021)
Before ROSENBAUM, LAGOA and BRASHER, Circuit
Judges.
PER CURIAM:

16
Pet.App.2
[Opinion Page 2]
Anthony Provitola and Kathleen Provitola,
husband and wife proceeding pro se, appeal
decisions of the United States Tax Court finding
them liable for tax deficiencies for the years 2013
and 2014 and imposing accuracy-related penalties
under 26 U.S.C. § 6662. The Tax Court determined,
after a bench trial, that the Commissioner of the
Internal Revenue Service (“IRS”) properly
disallowed business deductions the Provitolas
claimed on their joint 2013 and 2014 income-tax
returns because their company, Viovision Ventures
LLC (“Viovision”), was still in the startup phase and
not yet an active trade or business. Finding no error
in the Tax Court’s findings of fact or conclusions of
law, we affirm.
I.
The relevant facts are largely undisputed. The
Provitolas are husband and wife and were married at
all relevant times. Anthony is an inventor and
registered patent attorney. He practices law through
his firm Anthony I. Provitola, PA (“APPA”), an S
corporation of which he is the sole member and
owner.
In 2003, Anthony began pursuing an insight about
visual perception. By 2005, he had developed a
visual system that allowed certain viewers to see a

17
Pet.App.3
standard two-dimensional television image as three
dimensional. Between 2005 and 2007, he sought and
obtained several patents for the visual system. Then,
in 2007, the Provitolas formed Viovis ion to develop,
manufacture, and market a device that used
[Opinion Page 3]
his visual system. Since then, Anthony has provided
management, product development, and productdesign services to Viovision, all through APPA.
Between 2007 and 2015, Anthony tested,
experimented with, and further developed the
television device “to bring the system to a
manufacturable state.” He testified that during the
years at issue (2013 and 2014), Viovision required
a tremendous amount of work related to design,
sourcing of materials, and researching potential
patent issues. Viovision produced its first inventory
of the device in 2015. Meanwhile, Anthony hired
third parties to create a pricing system and develop
a website through which Viovision eventually could
market and sell the device. The website was created
in 2016 and 2017, but it was not accessible to the
public through the time of trial. Viovision had not
attempted to market or sell any products at the time
of trial in 2019, as Anthony was still working
through pricing and other issues.
II.

18
Pet.App.4
Our focus here is on the years 2013 and 2014.
Viovision did not report any income or expenses
until 2013. In January 2013, APPA billed Viovision
for five years of services provided by Anthony.
APPA billed Viovision $12,000 per year for 2009
through 2013, for a total balance of $60,000. Then,
in January 2014, APPA billed Viovision an
additional $12,000. The Provitolas capitalized
Viovision to pay APPA, which then paid Anthony.
[Opinion Page 4]
The Provitolas filed joint income-tax returns
for the years 2013 and 2014. In their 2013 return,
they included a Schedule C (Profit or Loss from
Business) for Viovision, claiming a $36,000
deduction for expenses Viovision paid to APPA for
Anthony’s “legal and professional services.” The
Provitolas’ 2014 return similarly deducted
Viovision’s payments to APPA on Schedule C, with
$22,000 categorized as legal and professional fees,
and $20,326 categorized as “other expenses.”
In separate notices of deficiency dated
December 31, 2013, and December 31, 2104, the
IRS disallowed the claimed deductions because, in
its view, the Provitolas did not establish that the
business expenses were paid or incurred during the
taxable year or that they were “ordinary or
necessary.” The notices determined income-tax
deficiencies of $7,818 (2013) and $11,328 (2014)
and imposed accuracy-related penalties of $ 1,536.60

19
Pet.App.5
(2013) and $2,265.60 (2014). See 26 U.S.C. § 6662.
The Provitolas timely petitioned the Tax
Court for review of the 2013 and 2014 notices of
deficiency on May 20, 2016, and July 31, 2017,
respectively. They then moved for summary
judgment in both cases. The Tax Court denied the
motions, citing the existence of disputed factual
issues and the need for more evidentiary
development. The factual issues, according to a
November 7, 2017, order denying summary
judgment, included “whether petitioners engaged in
the Schedule C activity with an actual and honest
profit motive” and “whether the legal and
professional services fees paid by petitioners were
ordinary and necessary
[Opinion Page 5]
expenses.” After the cases were consolidated in
2018, the Provitolas again moved for summary
judgment, but the Tax Court denied the motion.
The Tax Court held a bench trial, at which
Anthony was the sole witness. The Tax Court then
made oral findings sustaining the notices of
deficiency and the accuracy-related penalties. The
court explained that taxpayers may deduct ordinary
and necessary expenses paid or incurred in carrying
on any trade or business if business activities have
commenced, but that expenses for a business that is
still in the start-up phase are not “ordinary and

20

Pet.App.6
necessary” expenses to the business and are
therefore not deductible under 26 U.S.C. § 162(a).
So according to the court, no deduction was
available unless Viovision had “begun an active
trade or business.” And although Viovision took
“significant steps to prepare for the business of
selling Mr. Provitola’s invention,” the court found
that it had not yet engaged in an active trade or
business in 2013 and 2014 because it had not
“attempted to market or sell a product,” “made any
sales,” or “made its website public.”
Next, the Tax Court next held that the
accuracy-related penalties applied. The court
observed that the amount of taxpayers’
understatement of income satisfied the statutory
threshold for the penalties under 26 U.S.C. § 6662,
and it found that the Provitolas had failed to
demonstrate that any affirmative defense applied.
[Opinion Page 6]
The Tax Court entered written decisions
sustaining the tax deficiencies and penalties. The
Provitolas timely appealed.
II.
The Provitolas first argue that the Tax Court
erred in denying their pretrial summary-judgment
motions. In their view, the Tax Court, in its

21
Pet.App.7

November 7,2017, order denying one such motion,
narrowed the issues in the case to “whether the
Petitioners engaged in Schedule C activity with an
actual and honest profit motive.” They say that the
IRS failed to rebut their evidence on this point, so
summary judgment should have been granted, but
instead the Tax Court violated law of the case by
permitting the IRS to argue the new theory of start­
up expenses at trial.
The denials of the Provitolas’ pretrial
summary-judgment motions are not reviewable on
appeal. In Lind v. United Parcel Service, Inc., we
held that “the denial of summary judgment is not
reviewable on appeal after a full trial and final
judgment on the merits.” 254 F.3d 1281, 1284-86
(11th Cir. 2001). Because the Tax Court entered
judgment on the merits after a full trial, we “will not
review the pretrial denial of a motion for summary
judgment.” Id. The Provitolas’ argument that this
[Opinion Page 7]
rule applies only to jury trials is not persuasive
because Lind itself applied that rule in an appeal
arising from a bench trial. See id. at 1283.
Nor do we find persuasive the Provitolas’
law-of-the-case argument. The order that the
Provitolas claim limited the issues in the case listed
multiple triable issues, not just the one they quote.
Those issues included “whether the legal and

22

Pet.App.8
professional services fees paid by petitioners were
ordinary and necessary expenses.” So even if we
assume that this order established law of the case,
the Tax Court acted within the order’s scope when
it concluded that the expenses were not “ordinary
and necessary” because Viovision was not yet an
active business.
III.
Next, the Provitolas contend that the Tax
Court erred by imposing a “product sale”
requirement for a manufacturing business to exist
beyond the start-up phase. They argue that
Viovision was in the business of both manufacturing
and marketing, and they assert that Viovision’s
manufacturing business was active during 2013 and
2014 because it was manufacturing product
components that were “ultimately incorporated in
the assembly and packaging runs in 2015.”
We review the Tax Court’s application of the
tax code de novo and its findings of fact for clear
error. Campbell v. Comm V ofInternal Revenue, 658
F.3d 1255, 1258 (11th Cir. 2011). An income-tax
deduction is a matter of legislative grace, and
[Opinion Page 8]
the taxpayer bears the burden of clearly showing the
right to a claimed deduction. INDOPCO, Inc. v.
Comm’r of Internal Revenue, 503 U.S. 79, 84

23
Pet.App.9
(1992).
Section 162 of the Internal Revenue Code
allows as a deduction “all the ordinary and
necessary expenses paid or incurred during the
taxable year in carrying on any trade or business.”
26 U.S.C. § 162(a). “The phrase ‘trade or business’
presupposes an existing trade or business.” Stanton
v. Comm’r of Internal Revenue, 399 F.2d 326, 329
(5th Cir. 1968).2So § 162(a) “does not allow current
deductions for expenses incurred by a taxpayer prior
to beginning business operations.” Sorrell v.
Comm’r of Internal Revenue, 882 F.2d 484, 486
(11th Cir. 1989) (“[P]rior to the business’s
beginning to operate as a going concern, the
taxpayer is not engaged in carrying on any trade or
business.” (quotation marks omitted)).
Moreover, such “pre-opening” or “start-up”
expenses are not “ordinary” expenses because they
are considered “capital in nature, given that they
spring from the taxpayer’s efforts to create or
acquire a capital asset.” Id. at 488; see Comm’r of
Internal Revenue v. Tellier, 383 U.S. 687, 689-90
(1966) (“The principal function of the term
‘ordinary’ in § 162(a) is to clarify the distinction,
often difficult, between those expenses that are
currently deductible and those that are in the nature
of capital expenditures, which, if deductible at all,
must be amortized over the useful life of

24
Pet.App.10
[Opinion Page 9]
the asset.”)* This understanding is reflected in 26
U.S.C. § 195, which provides that “no deduction
shall be allowed for start-up expenditures,” except
through amortization once “the active trade or
business begins.” See 26 U.S.C. § 195(b).
The determination of when a trade or business
begins presents a question of fact requiring an
examination of all the relevant facts. Stanton, 399
F.2d at 330. An active or existing trade or business
is generally one that is “perform[ing] those activities
for which it was organized,” not simply taking steps
in preparation to perform those activities. Richmond
Television Corp. v. United States, 345 F.2d 901,907
(4th Cir. 1965), vacated on other grounds, 382 U.S.
68 (1965); see also Jackson v. Comm’r of Internal
Revenue, 864 F.2d 1521, 1526 (10th Cir. 1989)
(“Taxpayers’ activities in this case clearly did not
rise to the level of a functioning business, and
taxpayers did not perform the ultimate activity for
which their business was organized—attempting to
sell player/recorders.”).
Here, the record amply supports the Tax
Court’s finding that the Provitolas were not yet
carrying on a “trade or business” through Viovision
in 2013 or 2014. See 26 U.S.C. § 162(a); Sorrell,
882 F.2d at 486; Stanton* 399 F.2d at 330. It is
undisputed that the Provitolas created Viovision to

25
Pet.App.ll
profit from Anthony’s invention
[Opinion Page 10]
by manufacturing and marketing a device to enhance
the television viewing experience. Yet, according to
Anthony’s own testimony, Viovision was still
engaged in the process of “creating the
manufacturable item” in 2014 and did not produce
its first units until 2015, after the tax years at issue.
In addition, Viovision’s website did not exist until
2015, and it had not sold any products as of the trial
in 2019. Thus, whether viewed as a manufacturing
business or a marketing or retail business, or both,
Viovision had not begun “to operate as a going
concern” in 2013 and 2014 because it had not yet
manufactured or sold any of the devices, the
purposes for which it was organized. See Sorrell,
882 F.2d at 486. While Anthony undertook
substantial activity to prepare for the business of
manufacturing and selling the device during that
time, such expenses are not “ordinary” business
expenses but rather in the nature of capital
expenditures, which may be amortized once “the
active trade or business begins.” See id. at 486,488;
26U.S.C. § 195(b).
In sum, the Tax Court did not clearly err in
finding that Viovision’s expenses, as claimed on the
Provitolas’ 2013 and 2014 tax returns, were not
deductible under § 162(a) as ordinary and necessary

26

Pet.App.12
expenses paid or incurred in carrying on a trade or
business. See Campbell, 658 F.3d at 1258. The Tax
Court thus properly affirmed the Commissioner’s
disallowances. And because the Provitolas have not
raised on appeal any independent arguments
challenging the 26 U.S.C. § 6662(a) penalties, they
have abandoned any such issues. See Timson v.
Sampson, 518 F.3d 870, 874
[Opinion Page 11]
(11th Cir. 2008) (stating that issues not briefed on
appeal by pro se litigants are deemed abandoned).
We accordingly affirm the decisions of the Tax
Court.
AFFIRMED. [FOOTNOTES OMITTED]

27
APPENDIX B: Pet.App.13
UNITED STATES TAX COURT
WASHINGTON, DC 20217

ANTHONY I. PROVITOLA &
KATHLEEN A. PROVITOLA
Petitioners,
v.

)
)
)
)
)

) Docket No.
) 12357-16.
COMMISSIONER OF INTERNAL )
REVENUE,
)
Respondent

)
)

ORDER
On September 29,2017, petitioners filed a Motion
for Summary Judgment. Thereafter, on October 23,
2017, respondent filed a Notice of Objection to
petitioners’ motion for summary judgment.
Petitioners, as the moving parties, bear the
burden of proving that there is no genuine dispute as to
any material fact and that petitioners are entitled to
judgment as a matter of law. Rule 121(b), Tax Court
Rules of Practice and Procedure; see also Sundstrand
Corp. v. Commissioner. 98 T.C. 518, 520 (1992) affd, 17
F.3d965 (7th Cir. 1994); Naftel v. Commissioner, 85 T.C.
527, 529 (1985). In deciding whether to grant
summaryjudgment, the factual materials and the
inferences drawn from them must be considered in the

28
Pet.App.14
light most favorable to the nonmoving party. See FPL
Group. Inc. & Subs, v. Commissioner. 115T.C.554 (2000);
Bond v. Commissioner. 100 T.C. 32, 36 (1993).
Upon review of the record in this case, drawing
factual inferences against petitioners as the moving
parties, we conclude that there are material issues of
fact in dispute at this juncture of the litigation, e.g.,
whether petitioners engaged in the Schedule C activity
with an actual and honest profit motive, whether
petitioners actually incurred legal fees for the purposes
of Internal Revenue Code section 162 and, if so, whether
the legal and professional services fees paid by
petitioners were ordinary and necessary expenses.
Thus, at this time, it appears this case requires more
evidentiary development. Evidence is received by the
Court by means of the stipulation and trial process, not
through pleadings such as the petition, answer, and any
reply. See Rules 91 and 143, Tax Court Rules of Practice
and Procedure.
Upon due consideration, it is
ORDERED that petitioners' Motion for Summary
Judgment, filed September 29,2017, is denied.
(Signed) L. Paige Marvel
Judge
Dated: Washington, D.C.
November 7,2017

29
APPENDIX C: Pet.App.15
Rule 56(a) - Summary Judgment
Motion for Summary Judgment or Partial Summary
Judgment. A party may move for summary judgment,
identifying each claim or defense — or the part of each
claim or defense
on which summary judgment is
sought. The court shall grant summary judgment if the
movant shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment as
a matter of law. The court should state on the record the
reasons for granting or denying the motion.

1

30
APPENDIX D: Pet.App.16
26 U.S. Code § 162 - Trade pr business expenses
(a) In generalThere shall bp allowed as a deduction all
the ordinary and necessary expenses paid or incurred
during the taxable year in carrying on any trade or
business, including—

>*.

•;

\‘r

:
\
*
>

V

•:

>

• > />

»
l

!

